                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOLTT MEMORANDUM

Case Number: A05120082                                                                      Page 1 of 1



     We received an allegation of intellectual theft from the complainant,' who, as a result of his
     review of the subject's NSF proposal,2 alleged the subject's proposal contained ideas that were
     very similar to his own. The complainant said he presented these similar ideas in a proposal he
     submitted to NSF the year b e f ~ r e .In~ addition, the complainant said he received another of the
     subject's proposals to review that had been submitted to another agency4 a few months prior to
     the subject's NSF proposal that also contained some of these same similar ideas.

     The complainant emphasiied that he kept his information confidential so there was no way the
     subject could have learned of his ideas except through the NSF review process, either directly to
     the subject or through a third party who shared the complainant's proposal with the subject. The
     complainant added that if the subject did not have access to the complainant's NSF proposal, the
     subject must have derived the ideas himself, which he admitted might have occurred. The
     complainant provided the name of one of the subject's fellow researchers5 whom he thought
     might have acted as a potential link to the ideas in the complainant's proposal. The complainant
     stated he had recommended this third party as a potential reviewer for his NSF proposal.6

     Our review showed that neither the subject, nor the third party identified by the complainant,
     received the complainant's proposal for review. Further, none of the collaborators or former
     professors listed in the subject's NSF proposal Biosketch received the complainant's proposal for
     review.

     We concluded that there is no evidence of a breach of confidentiality of the peer review process.

     This case is closed and no further action will be taken.




      submitted by the com~lainantas the sole PI.
